i
I H-

?•••»

t

NO.: Uc S'C

A l:rt<7 3 l 'IS

IN THE

SUPREME COURT OF THE UNITED STATES

*7

- Petitioner;

V.

3\sh l

L^Jr^<J - Respondent(s);

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Attorney for Petitioner:

DOC#

/ 6,91* 9

Vq

^ Aciji jy
? 0 &eX-WI
^ilSZ^Jf/j Petitioner ipro se

Case: 21-1550

Document: 6-1

Filed: 05/12/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dlrksen United States Courthouse
Room 2722 - 219 5. Dearborn Street
Qiicago, Dlinois 60604

Office of the Qerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

PLRA C.R. 3(b) FINAL ORDER
May 12,2021
KEVIN L. MARTIN,
Plaintiff - Appellant
No. 21-1550

v.
ASHLYNN LEDFORD,
Defendant - Appellee

Originating Case Information:
District Court No: 2:19-cv-00201-JRS-DLP
Southern District of Indiana, Terre Haute Division
District Judge James R. Sweeney
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
appellate court on April 15, 2021 and was given fourteen (14)days to pay die $505.00 filing
fee. The pro se appellant has not paid the $505.00 appellate fee. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner’s trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinaIOrder(form ID: 142)

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN L. MARTIN,
Plaintiff,
v.
ASHLYNN LEDFORD,
Defendant.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-0'0201 -JRS’-DLP

ORDER TO SHOW CAUSE
On June 3, 2020, the Court sanctioned the plaintiff preventing him from making further
filings in this action, apart from a notice of appeal, until he pays a fine. Dkt. [93]. He has not yet
complied with the sanction order and thus is unable to comply with the Court's final pre-trial
scheduling order which required him to file final witness and exhibit lists on January 8, 2021.
Dkt. [107].
Neither the Court nor the defendant can prepare for trial without the plaintiff s final witness
and exhibit lists and other pre-trial filings. Therefore, the plaintiff shall have through February
15,2021, in which to take the actions necessary to comply with the sanction order so that the filing
restriction is lifted and to show cause why this action should not be dismissed for failure to comply
with Court Orders. Failure to comply with this deadline will result in the dismissal, of this action
without further notice.
IT IS SO ORDERED.

Date: 1/12/2021
JAMES R. SWEENEY II, JlfJDGE
United States District Court
Southern District of Indiana

*

Distribution:
KEVIN L. MARTIN
169789
PENDLETON - CF
PENDLETON CORRECTIONAL FACILITY
Inmate Mail/Parcels
4490 West Reformatory Road
PENDLETON, IN 46064
Marley Genele Hancock
INDIANA ATTORNEY GENERAL
inarley.hancock@atg.in.gov
Archer Riddick Randall Rose
INDIANA ATTORNEY GENERAL
archer.rose@atg.in.gov

Case 2:19-cv-00201-JRS-DLP Document 119 Filed 02/17/21 Page 1 of 2 PagelD #: 804

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN L. MARTIN,
Plaintiff,
v.

ASHLYNSi LEDFORD,
Defendant.

)
>
)
)
)
)
)
)
)

.

No. 2:19-cv-00201 -JRS-DLP

ORDER DISMISSING ACTION FOR FAILURE TO PROSECUTE
On June 3, 2020, the Court sanctioned the plaintiff preventing him from making further
filings in this.action, apart from a notice of appeal, until he pays a fine. Dkt. [93]. He has not yet
complied with the sanction.order and thus was unable to comply with the Court's final pre-trial
scheduling order which required him to file final witness and exhibit lists on January 8, 2021.
Dkt. [107]. The Court issued an order to the plaintiff to 1) take the actions necessary to comply
with the sanction order so that the filing restriction would be lifted; and 2) show cause why this
action should not be dismissed for failure to comply with Court Orders. The Court warned the
plaintiff that failure to comply with the order's deadline would result in the dismissal of this action
without further notice. Dkt. [114].
The deadline has passed, and the plaintiff has not taken the actions necessary to comply
with the sanction order so that the filing restriction could be lifted. Neither the Court nor the
defendant can prepare for trial without the plaintiffs final witness and exhibit lists and other pre­
trial filings, therefore, the action is dismissed for failure to prosecute. Final judgment consistent
with this order shall now issue.
IT IS SO ORDERED.

1
‘-Case 2:19-cv-00201-JRS-DLP Document 119 Filed.02/17/21 Page 2 of 2 PagelD #: 805

^

Date: 2/17/2021
JAMES R. SWEENEY II, JjJDGE
United States District Court
Southern District of Indiana
Distribution:
-KEVIN L. MARTIN
.. 169789
PENDLETON - CF
PENDLETON CORRECTIONAL FACILITY
Inmate Mail/Parcels
4490 West Reformatory Road
PENDLETON, IN 46064
Marley Genele Hancock
INDIANA ATTORNEY GENERAL
marley.hancock@atg.in.gov
Archer Riddick Randall Rose
INDIANA ATTORNEY GENERAL
archer.rose@atg.in.gov

(Z,0

.

Case 2:19-cv-00201-JRS-DLP Document 120 Filed 02/17/21 Page 1 of 1 PagelD #: 806

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN L. MARTIN,
Plaintiff,
v.

ASHLYNN LEDFORD,
Defendant.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00201 -JRS-DLP

FINAL JUDGMENT
The Court now enters FINAL JUDGMENT. The action is dismissed for failure to
—^

prosecute.
Date: 2/17/2021

Distribution:
KEVIN L. MARTIN
169789
PENDLETON - CF
PENDLETON CORRECTIONAL FACILITY
Inmate Mail/Parcels
4490 West Reformatory Road
PENDLETON, IN 46064

JAMES R. SWEENEY II, JjJDGE
United States District Court
Southern District of Indiana

Roger A.G. Sharpe, Clerk
BY:
Deputy Clerk, U.S. District Court

Marley Genele Hancock
INDIANA ATTORNEY GENERAL
marley.hancock@atg.in.gov
Archer Riddick Randall Rose
INDIANA ATTORNEY GENERAL
archer.rose@atg.in.gov

0

Additional material
from this filing is
available in the
Clerk's Office.

